HHS/OIG, Audit - "Review of New Jersey's Medicaid School-Based Rates,"
(A-02-04-01017)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Jersey's Medicaid School-Based Rates," (A-02-04-01017)
February 8, 2008
Complete
Text of Report is available in PDF format (424 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New Jersey claimed Medicaid reimbursement for
health-related services through a program called the Special Education Medicaid
Initiative (SEMI) program.  The State also claimed Medicaid reimbursement for
administrative costs through a program called the Medicaid Administrative
Claiming (MAC) program.  The rates used by the State to claim Medicaid
reimbursement under the SEMI and MAC programs were not reasonable and did not
comply with Federal requirements and the Medicaid State plan.  The SEMI and MAC
rate-setting methodologies included costs that were duplicated, unallowable, or
improperly allocated.  As a result, the State improperly received Federal
Medicaid payments during the period July 1, 1998, through June 30, 2001.  These
improper payments were not quantified because a prior Office of Inspector
General audit report (A-02-03-01003) questioned school-based
claims billed by New Jersey for the same period.  We recommended that
the State work with the Centers for Medicare & Medicaid Services to determine
the overpayment amounts and return those overpayments to the Federal Government
and that it properly develop and document its school-based rates.  New Jersey
concurred with our findings and recommendations.